CERTIFICATE OF SERVICE
for
SUPREME COURT OF THE UNITED STATES
20Jamel Ellerbee et al. v Annett Holdings. Inc., d/b/a TMC Transportation et al..

DOCUMENT: PETITION FOR WRIT OF CERTIORARI

Three true and correct copies of the forgoing document were served on all parties, by
USPS Priority Mail.

Dana Hoffman & Matthew Burke of Young Moore and Henderson, P.A., Counsel
3101 Glenwood Ave Suite 200 Raleigh, NC 27612
Phone: 919.782.6860
For: Annett Holdings, Inc., d/b/a TMC Transportation. Marcv Noble, Steve Linder.
Steven Feldmann. Todd Bunting. Jordan Olsen. Niki Bailey. Chad Vanderlinden

William Z. Ross, General Counsel for Specialty Rolled Metals, LLC.
423 Saint Paul Blvd Carol Stream, IL 60188
Phone: 630.871.5765
For: Specialty Rolled Metals. LLC.. Mike Kiewert. Lorena Bacerott. William Z. Ross

Alyssa C. George, Counsel for United States Department of Labor
200 Constitution Ave. NW, S-4004 Washington, D.C. 20210
Phone: 202.693.5609
For: United States Department of Labor

Noel Francisco, The Solicitor General of the United States
Department of Justice, 950 Pennsylvania Ave., N.W., Room 5616, Washington, D.C.
20530-0001
Phone: 202.514.2203

I declare under penalty of perjury that the foregoing is true and correct.

Executed on,
7-30 - 2-62-P

By, Jamel Ellerbee.

CERTIFICATE OF COMPLIANCE
for the
SUPREME COURT OF THE UNITED STATES

No. 20 -

Jamel Ellerbee. et al.. v. Annett Holdings. Inc., d/b/a TMC Transportation et al.

DOCUMENT: PETITION FOR WRIT OF CERTIORARI
This petition is composed of 24 pages, complying with Rule 33.2(b) by containing
less than 40 pages, with the exclusions specified in Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on,
H-&Q - 20 20

By, Jamel Ellerbee.

